<html>
<title> - HEARING TO EXAMINE A DISCUSSION DRAFT BILL, S. 4897, THE AMERICAN NUCLEAR INFRASTRUCTURE ACT OF 2020</title>
<body><pre>[Senate Hearing 116-270]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-270

                   HEARING TO EXAMINE A DISCUSSION DRAFT 
                    BILL, S. 4897, THE AMERICAN NUCLEAR INFRA-
                     STRUCTURE ACT OF 2020

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             AUGUST 5, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-427 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                             AUGUST 5, 2020
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     6

                               WITNESSES

Roma, Amy, Founding Member, Nuclear Energy and National Security 
  Coalition, Atlantic Council; Partner, Hogan Lovells............     7
    Prepared statement...........................................    10
    Responses to additional questions from:
        Senator Barrasso.........................................    21
        Senator Whitehouse.......................................    32
        Senator Van Hollen.......................................    33
Goranson, William Paul, President, Uranium Producers of America; 
  Chief Operating Officer, Energy Fuels Resources, Inc...........    35
    Prepared statement...........................................    37
    Responses to additional questions from Senator Barrasso......    45
    Response to an additional question from Senator Sanders......    48
    Responses to additional questions from:
        Senator Whitehouse.......................................    49
        Senator Van Hollen.......................................    50
Cohen, Armond, Executive Director, Clean Air Task Force..........    54
    Prepared statement...........................................    56
    Responses to additional questions from:
        Senator Barrasso.........................................    74
        Senator Sanders..........................................    77
        Senator Whitehouse.......................................    79
        Senator Van Hollen.......................................    82

                          ADDITIONAL MATERIAL

Discussion Draft S. 4897, the ``American Nuclear Infrastructure 
  Act of 2020''..................................................   160
Discussion Draft Titled ``American Nuclear Infrastructure Act of 
  2020''; Section-by-Section.....................................   208

 
   HEARING TO EXAMINE A DISCUSSION DRAFT BILL, S. 4897, THE AMERICAN 
                   NUCLEAR INFRASTRUCTURE ACT OF 2020

                              ----------                              


                       WEDNESDAY, AUGUST 5, 2020

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Cramer, Braun, 
Rounds, Sullivan, Ernst, Cardin, Whitehouse, Booker, and Van 
Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    Clean, reliable nuclear energy is a cornerstone of 
America's energy infrastructure. Nuclear provides over half of 
our Nation's emission-free power. Today's nuclear reactors can 
run up to 2 full years without needing to be refueled.
    America's nuclear engineers and scientists also support our 
national security. Nuclear energy powers our Navy's aircraft 
carriers and our submarines. Nuclear technology is fundamental 
to meeting our energy, environmental, economic, and national 
security goals.
    Since America's first nuclear engineers worked on the 
Manhattan Project to win World War II, the United States has 
led the world in developing new nuclear technologies. For the 
last 75 years, our nuclear energy industry has been the world's 
leader in safety as well as performance. We must ensure that 
our leadership endures.
    The draft bill we are discussing today, the American 
Nuclear Infrastructure Act of 2020, will do just that. The 
legislation will ensure we maintain the United States' 
historical position as the global nuclear energy leader.
    Our foreign competitors, specifically China and Russia, 
seek to undermine America's nuclear industry for their own 
advantage.
    President Trump's recent Nuclear Fuel Working Group Report 
unequivocally states that Russia weaponizes its energy supplies 
to advance their strategic goals. I agree with this assessment. 
Time and again, Vladimir Putin has used energy as a 
geopolitical weapon.
    It is well documented that Russians have withheld its vast 
natural gas supplies to bully energy dependent foreign 
neighbors to achieve their geopolitical aims. Even in the 
United States, Russia has been deliberately trying to dump 
uranium into our energy markets. This undercuts American 
uranium production, and it drives our American companies out of 
business.
    The Administration report describes the dire situation 
facing our Nation's uranium producers. America is on the brink 
of finding ourselves completely reliant on foreign uranium to 
power our homes and our businesses.
    Wyoming is the leading uranium producer in the United 
States. Production is down significantly. The Energy 
Information Administration recently reported that last year's 
American uranium production was at an all time low. It is 
dangerous, and we must reverse this trend.
    The draft legislation establishes a uranium reserve to 
receive and revive and strengthen our uranium production. 
American mined uranium would fill the reserve. The material 
would be available in the event of a supply disruption.
    This strengthens our energy security, and it preserves 
critical uranium mining jobs around the country. If we lose our 
ability to mine uranium, it would take a generation to rebuild 
it. Establishing a uranium reserve preserves good jobs and 
protects our national security. It is a win-win situation.
    I applaud the Trump administration for their efforts to 
protect our uranium industry. I support the Department of 
Commerce's actions to extend an agreement to limit how much 
Russian uranium can enter the United States.
    If those efforts succeed, Congress will establish those 
Russian importation caps into law. If we fail, it will lead 
efforts to set the needed caps in law.
    The draft legislation takes other important steps to 
maintain America's leadership on nuclear energy. The bill 
directs the Nuclear Regulatory Commission to coordinate with 
foreign nuclear regulators to enable the safe use of innovative 
nuclear designs.
    The draft builds on Nuclear Energy Innovation and 
Modernization, an act that we have gone on, which is authorized 
by members of this Committee to expand nuclear energy to 
advance nuclear technologies.
    The draft legislation also modernizes environmental 
permitting requirements to address the needs of new 
technologies. The bill identifies regulatory barriers that 
limit the safe deployment of new nuclear technologies.
    These new technologies are capable of radically reducing 
carbon emissions. It is time to remove regulatory roadblocks 
for the next generation of nuclear reactors.
    This discussion draft would preserve America's existing 
nuclear power plants by authorizing temporary, targeted 
financial credits to reactors at risk for closing. It will help 
develop advanced fuels needed to power cutting edge reactors.
    The draft will also help reduce construction costs to build 
advanced nuclear reactors.
    Finally, it reauthorizes critical training programs to 
bolster our nuclear work force.
    The American Nuclear Infrastructure Act is a blueprint to 
revitalize our nuclear energy industry. I would like to thank 
Senators Whitehouse and Booker and Crapo and Carper for working 
with me on this draft. The policies in this draft legislation 
will keep the United States on track to remain the undisputed 
international nuclear energy leader for the next 25 years.
    I would now like to turn to Ranking Member Carper for his 
opening statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Mr. Chairman, thanks so much for holding 
today's hearing.
    To our witnesses, the two that are here live and in person, 
we welcome you.
    To the witness who joins us from afar, thank you for doing 
that.
    Mr. Chairman, as the United States continues to battle a 
deadly respiratory pandemic that has tragically claimed the 
lives now of more than 159,000 Americans, emerging evidence 
continues to show that people living in places with greater, 
longer term exposure to air pollution are experiencing far 
worse health outcomes. So at a time when breathing clean air is 
paramount to public health and quality of life, it is only 
appropriate that we talk about the potential for nuclear power.
    Today, nuclear power is our Nation's largest source of 
clean, reliable, carbon-free energy. That is why when I think 
about nuclear power, I think about clean air.
    I also think about economic opportunity and the potential 
we have as a Nation to lead the world in advanced nuclear 
technologies. In fact, there was a time not long ago when the 
United States did lead the world in nuclear manufacturing, 
nuclear construction, nuclear production.
    By supporting the next generation of advanced nuclear 
technologies that are being developed here at home, 
technologies that are safer, that produce less spent fuel, that 
are cheaper to build and to operate, and that provide good 
paying manufacturing, construction, and operating jobs for 
Americans, the U.S. can lead the world again.
    I believe that Congress, and this Committee in particular, 
have an important role to play in ensuring that our Nation 
invests wisely in nuclear energy while maintaining our focus on 
safety to ensure cleaner air for our people and this planet we 
call home.
    That is why, in the last Congress, I was proud to work with 
you, Mr. Chairman, and with a number of our colleagues on this 
Committee and off this Committee to enact the Nuclear Energy 
Innovation and Modernization Act, known as NEIMA. Among many 
things, NEIMA directs the Nuclear Regulatory Commission to 
develop a new framework to accept and process license 
applications for advanced nuclear technologies.
    These changes are already being implemented at the NRC 
today, resulting in greater efficiency, greater transparency in 
the licensing process. With NEIMA, we are moving closer than 
ever before to making advanced nuclear power a reality in this 
country, and we are doing so without jeopardizing safety.
    The draft legislation before us today represents the 
Chairman's efforts to build on NEIMA's success, and it attempts 
to move us even closer to that reality.
    A number of us on this Committee, and that certainly 
includes me, share our Chairman's enthusiasm for supporting 
advanced nuclear technologies. Let me be clear in saying that I 
support the broader goal of what this legislation aims to 
achieve.
    That being said, I would be remiss if I didn't hasten to 
add that I have several serious reservations with the 
legislation as it is currently drafted, and I suspect that some 
of our colleagues, both on and off this Committee, share 
several of those reservations.
    Let me just mention a couple of them here this morning. I 
am particularly concerned with the additional changes to the 
permitting process, which I believe could result in unintended 
adverse consequences for environmental quality, for public 
safety, and for public health.
    We only recently made a number of necessary changes to the 
NRC's regulatory structure for advanced nuclear technologies 
through NEIMA. I fear that making additional, unwarranted 
changes at this time could seriously disrupt the regulatory 
process in a way that threatens the safety reviews of these new 
technologies.
    We have seen the damage that nuclear power can inflict if 
proper safety precautions are not in place, are not kept up to 
date, or are not followed. Safety has been and must always 
remain a top priority in the operation of nuclear reactors, and 
oftentimes, regularly conducting these safety reviews is a 
critical part of ensuring the safety that we all seek.
    It is also critically important that the NRC remains the 
world's gold standard of nuclear regulatory agencies. I believe 
we all agree that a strong, independent NRC is essential to 
ensuring a safe nuclear industry.
    A safe nuclear industry is essential to ensuring public 
confidence, and maintaining public confidence in this vital 
industry is absolutely essential to ensuring that nuclear power 
can continue to play the vital role that it plays in this 
country, and I believe, around the world.
    If we want to lead the world in advanced nuclear 
technologies, and I believe that many of us do, we must be 
careful, very careful, not to jeopardize the still promising 
future of the nuclear industry by further streamlining safety 
regulations, largely for the sake of streamlining.
    Colleagues, if we do not proceed with genuine caution on 
this front, shortcuts on safety will do more to harm this 
industry in the long run, not help it.
    I am not going to dwell on this this morning, but I also 
have several concerns about the Environmental Protection 
Agency's incentive program for the existing nuclear industry 
that is included in this bill, especially in light of the 
recent cuts to EPA's budget.
    We need to keep in mind that the proposed Federal budget 
for fiscal year 2021 calls for cutting EPA's budget by 27 
percent, a reduction of $2.4 billion from the appropriation we 
enacted for the current fiscal year. By creating this new 
program at EPA without new funding, we run the risk of asking 
the agency to do even more with, quite possibly, far fewer 
resources.
    With those cautionary notes in mind, Mr. Chairman, let me 
thank you again for holding today's hearing. I appreciate very 
much the opportunity to discuss those concerns further with you 
and our colleagues and our witnesses, both today and in the 
days to come.
    I also appreciate the opportunity for us to focus, as well, 
today, on the potential that nuclear power still holds for our 
country, and what it can still mean for our air quality, our 
economy, and our global competitiveness.
    When it comes to nuclear power, we have a real opportunity 
here. If we are smart about it, we will seize the opportunity, 
and we will do so without foregoing safety.
    And if we are smart about it, we will enable our country to 
reap the economic, the environmental, and public health 
benefits that flow from realizing that opportunity. America 
will be a world leader in nuclear energy once again, while 
helping to make Planet Earth a safer, healthier home for us 
all.
    I am going to stop my prepared remarks there, Mr. Chairman.
    I can't leave this hearing today without expressing my 
dismay at the news that a couple of utilities in this country 
have been, apparently, caught bribing two States to implement 
State programs to support this industry. One of those is in, I 
think it is in maybe in Illinois, ComEd, a subsidiary of Exelon 
was charged, I think, $200 million by the Federal Government 
for bribery in Illinois. First Energy is involved in a $60 
million bribery case in Ohio.
    In addition to that, we have the new construction of the 
AP1000 reactors in the Georgia Vogtle site that continue to 
face billions of dollars in overruns, in costs, in years of 
delays.
    I have been wearing a special mask this week, and it is a 
mask of my favorite baseball team. How a kid born in West 
Virginia, grew up in Virginia, went to Ohio State, could end up 
as a lifelong Detroit Tigers fan is a long story, but I am.
    The Tigers are not playing this week; they are supposed to 
be having a four game series, I think, with the Cardinals. That 
series has been canceled because six of the Cardinals came down 
with the coronavirus. About a half-dozen of the folks who work 
in the clubhouse came down as well. They canceled the series.
    This past weekend, on Sunday, there was a very special 
game. The Tigers played Cincinnati. Cincinnati walked off to a 
three-nothing lead, I think, in the third inning, and the 
Tigers brought in a young relief pitcher named Tyler Alexander 
that most people in this country, even in Detroit, had never 
heard of. Tyler Alexander struck out the first nine batters he 
faced.
    That has never happened but maybe once in the history of 
baseball. Nine. That day, he brought his best, very best, to 
the mound and to the game, and we need to bring our very best 
to this game.
    This is not a game; this is serious business. I will just 
say to the industry itself whose efforts we support and have 
for years, you have got to bring your best game. You have got 
to bring your very best game, as well.
    Thank you.
    Senator Barrasso. Well, thank you very much, Senator 
Carper, for your continued leadership on this and so many other 
topics related to this Committee.
    I also want to thank Senator Whitehouse for his significant 
involvement in putting this draft together, and I ask and 
invite Senator Whitehouse, if you would like to say a few 
words.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. I would be delighted to, Chairman.
    Let me thank you for the way you have had this Committee 
work in a really good, bipartisan fashion, both on the Nuclear 
Energy Innovation Capabilities Act, which is the collaboration 
bill between the national labs and the industry and academia, 
and also on the Nuclear Innovation and Modernization Act, which 
put together a new regulatory framework to solve what I said 
was the problem of, how do you get a Tesla through regulatory 
procedure that requires the testing of its carburetor.
    By analogy, we have to change the regulatory framework for 
nuclear innovation to adapt to the fact that these are going to 
be innovations. Both have passed, both are underway, both are 
successful, and I appreciate it very much.
    I think that two of the big issues we need to address here, 
one is, how do you deal with the fact that the nuclear energy 
industry is financially burdened by the fact that it doesn't 
get compensated for the carbon-free nature of its power? It 
makes no damn sense to shut down a safely operating nuclear 
plant to open up a gas fired plant that actually costs more, 
but gets away with actually costing more because the carbon 
differential doesn't factor into the equation.
    This bill works in that space in ways that I think are very 
helpful, very close to what we did on 45Q. We also have this 
problem of spent fuel, nuclear waste, for which we have no 
solution.
    Some people say we are going to put it in Nevada. Good luck 
with that. I don't think so. I don't think we have a solution.
    As we steer nuclear innovation forward, I want to make sure 
that we make it a really important strategic priority to have 
that innovation focus on the potential, the Holy Grail, of 
dealing with that terrible burden of spent fuel and actually 
turning that burden into an asset.
    Senator Braun is here; he comes with a business 
perspective. If we were a company, that spent fuel would be a 
liability on our books, and every single member of that board 
of that company would be saying, Oh, my God, how do we get that 
liability off our books?
    If we have a million dollar liability, we have a $999,000 
incentive to get it off your books. But it just sits there, and 
this bill actually creates some incentives and some reporting 
to kind of get it onto America's books so we pay attention.
    So, I thank the Chairman for both of those. We have work to 
do before I can fully support this bill on the environmental 
review side, on what we call streamlining, and with respect to 
foreign investment. That is what is keeping me from being on 
this bill at this point, but I think the Chairman and the 
members of the Committee know that I have been a good partner 
on these issues, have worked in good faith and in good 
bipartisan spirit.
    I expect that we are going to get there on this bill as 
well. I pledge that I will work as hard as I can to make sure 
that we do get there.
    And I thank you, and I want to give a particular shout out 
to Armond Cohen, one of our witnesses today. You may not 
notice, but many, many, many, many years ago, my first job as a 
new kid in the Rhode Island Attorney General's Office was the 
job nobody else wanted. You are the last one in, you get public 
utility regulation.
    Armond Cohen and I and Mary Kilmarks, now not with us any 
longer, and a few others, worked together, and in Rhode Island, 
we made the first conservation based electric rates in the 
United States of America.
    With our little utility, Narragansett Electric, which is 
now a part of the great national grid empire, and with a 
wonderful start, Armond's work in that was super important, and 
we have this long, long, long tradition. So it is really 
wonderful for me to see him in this Committee hearing after all 
those many years of good work, now multiple decades ago.
    I think we started something with those conservation based 
rates, and they are all over the country now.
    Thank you, Chairman.
    Senator Barrasso. Well, thank you very much, Senator 
Whitehouse, for your continued partnership. You really have 
been a good faith partner with us and an honest broker. We 
appreciate your commitment, too, and I believe we will get to 
that same point that we are all aiming for.
    We will now hear from our witnesses. We have Ms. Amy Roma, 
who is here, Founding Member of Atlantic Council's Nuclear 
Energy and National Security Coalition.
    We have Mr. Paul Goranson, who is the President of Uranium 
Producers of America.
    And as Senator Whitehouse just said, Mr. Armond Cohen, who 
is the Executive Director of the Clean Air Task Force, and Mr. 
Cohen is joining us remotely via Webex from Boston.
    I would like to remind the witnesses that your full written 
testimony will be made part of the official hearing record 
today. Please keep your statements to 5 minutes so we that may 
have time for questions. I look forward to the testimony.
    Ms. Roma, please proceed.

  STATEMENT OF AMY ROMA, FOUNDING MEMBER, NUCLEAR ENERGY AND 
 NATIONAL SECURITY COALITION, ATLANTIC COUNCIL; PARTNER, HOGAN 
                            LOVELLS

    Ms. Roma. Thank you.
    Good morning. My name is Amy Roma, and I am a founding 
member of the Nuclear Energy and National Security Coalition at 
the Atlantic Council and a nuclear regulatory lawyer at Hogan 
Lovells. Thank you for the opportunity to testify at this 
hearing in support of the draft, American Nuclear 
Infrastructure Act of 2020, or ANIA, for short. My testimony 
today represents only my views and observations.
    ANIA is a great step forward for ensuring that U.S. nuclear 
capabilities will be preserved and expanded, providing America 
with clean and reliable energy, tens of thousands of jobs, and 
billions of dollars in foreign trade opportunities for U.S. 
companies, while protecting U.S. interests.
    In 1954, at the dawn of nuclear power, President Eisenhower 
delivered his famous ``Atoms for Peace'' speech, offering to 
share U.S. nuclear energy technology with other nations who 
committed not to develop nuclear weapons.
    This program resulted in three important economic and 
national security objectives. One, it prevented the spread of 
nuclear weapons; two, it made the U.S. a leader in nuclear 
power, ensuring that the U.S. maintained dominance in nuclear 
safety and security, nuclear technology development, and 
nuclear trade; and three, it ensured the U.S. benefited from 
the geopolitical relationship that goes with such significant 
assistance with a foreign country's power supply.
    President Eisenhower's historic move has paid dividends for 
decades, and the U.S. was well positioned as a global leader in 
commercial nuclear power as well as safety and non-
proliferation.
    While the U.S. still leads the world with the biggest 
nuclear power program and 95 reactors providing 20 percent of 
the U.S.'s electricity and the best run plants, we have seen 
our international roles sharply decline, replaced largely by 
Russia, with China close behind, who have identified building 
nuclear power plants and nuclear trade as national priorities, 
promoted by the highest levels of government and backed by 
state financing and state owned enterprises.
    Russia now dominates nuclear power plant construction 
around the world, using it as a tool to exert foreign influence 
and reap significant economic benefits.
    With $133 billion in orders for nuclear reactor exports, 
nuclear energy is also a component of China's ``Belt and Road'' 
initiative, with China estimating it would build as many as 30 
foreign reactors by 2030, with an estimated value of $145 
billion. China further estimates that capturing just 20 percent 
of the ``Belt and Road'' market could create 5 million Chinese 
jobs.
    The U.S. nuclear power industry competing against foreign 
governments for new projects has quickly been sidelined on the 
foreign stage with no orders for new reactors abroad.
    While we have ceded the mantle at the moment, we have a 
chance to regain it when it comes to the next generation of 
nuclear technology, such as advanced reactors. ANIA will close 
the gap between U.S. potential and execution of these 
technologies, further supported by actions to preserve the 
operating nuclear fleet and support nuclear infrastructure.
    While there are many helpful provisions in ANIA, I would 
like to specifically note two examples and explain how they 
could help. One, the environmental review provisions set forth 
in Section 201; and two, the investment by allies provision set 
forth in Section 304.
    To the first example, over the years, the National 
Environmental Policy Act, or NEPA, has brought forth immense 
environmental health and safety benefits. Nonetheless, both 
sides of the aisle have recognized that NEPA reviews can be 
lengthy and create delays, all driving up project costs without 
making environmental reviews any better.
    By regulation, NEPA reviews should be concise, clear, and 
to the point. But when implemented at the agency level, the 
concise and clear elements often get lost. With no change in 
the law, NRC modern environmental reviews for new reactors can 
be a thousand pages longer than they were with the last wave of 
nuclear power plant construction for projects with less 
environmental impact.
    While the NRC has spent significant energy in the last few 
years trying to right size its safety focused technical reviews 
of advanced reactors, it has paid little attention to applying 
a right size practical approach to environmental reviews. 
Importantly, ANIA asks the NRC to do just that: Evaluate and 
consider how to conduct its reviews more effectively, 
leveraging existing resources, lessons learned, and evaluating 
the ways the reviews can be improved.
    To the second example, ANIA offers a refreshing revisit to 
the cold war era foreign owners restriction in the Atomic 
Energy Act, which was implemented at a time when U.S. policy 
focused on closely guarding nuclear technology without the 
national security safeguards we have in place today. Notably, 
it was implemented before the Committee on Foreign Investment 
in the United States, or CFIUS, was established, which now 
polices significant foreign investment into the U.S. nuclear 
industry.
    While it is unclear whether the foreign ownership 
restriction ever served any national security benefit, it has 
been very problematic in recent years when applied to the NRC, 
resulting in projects being canceled, impeding investment, 
creating huge regulatory uncertainty, and costing billions of 
dollars to the commercial U.S. nuclear power industry.
    The NRC unsuccessfully requested that Congress remove this 
restriction 20 years ago, and recently, this Committee received 
a letter from 10 former NRC commissioners, again urging 
Congress to remove this restriction.
    ANIA would amend this restriction to permit investment by 
certain U.S. allies, while the investment would still be 
subject to a CFIUS review, and the NRC's own non-inimicality 
finding, to ensure it does not harm U.S. interests. This is a 
simple change, but it can open the door to significant 
investment in this industry.
    Thank you. I am happy to discuss these or other provisions 
of ANIA or answer any other questions you may have.
    [The prepared statement of Ms. Roma follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. Well, thank you so much for you 
testimony. It was very thoughtful, and we look forward to 
getting to questions in a few moments.
    I would now like to welcome Mr. Paul Goranson this morning. 
In addition to serving as the president of the Uranium 
Producers of America, he is currently the Chief Operating 
Officer for Energy Fuels. It owns two uranium production 
facilities in Wyoming.
    He has lived in Wyoming for many years. He is the past 
president of chemical resources based in Cheyenne, also lived 
in Casper, and I am delighted to have you here, my friend.
    Please proceed.

    STATEMENT OF WILLIAM PAUL GORANSON, PRESIDENT, URANIUM 
  PRODUCERS OF AMERICA; CHIEF OPERATING OFFICER, ENERGY FUELS 
                        RESOURCES, INC.

    Mr. Goranson. Chairman Barrasso, Ranking Member Carper. 
Thank you for holding this hearing on the American Nuclear 
Infrastructure Act of 2020.
    I am the President of the Uranium Producers of America, a 
trade association representing the domestic uranium mining and 
conversion industry. I am also the Chief Operating Officer for 
Energy Fuels Resources, and I have worked in the U.S. uranium 
industry for over 30 years.
    The UPA strongly supports this bill, which will help 
reclaim America's leadership in global nuclear markets.
    As I started my career, the U.S. led the world in uranium 
production, employing over 20,000 workers, supplying almost all 
our own nuclear fuel, and we were a net exporter of uranium.
    Today, commercial reactors in the U.S. import more than 90 
percent of annual demand, and less than 1 percent of the 
uranium they use is mined in the United States. This has left 
the domestic production on the brink of collapse.
    Earlier this year, the multi-agency Nuclear Fuel Working 
Group recommended immediate government actions to address the 
predatory market tactics of the state owned uranium 
enterprises.
    U.S. mine production in 2019 was the lowest since 1949. The 
U.S. mined only a fraction of uranium needed to fuel even one 
of our 95 commercial nuclear reactors.
    Employment is at all time low, we are almost entirely 
dependent on imported uranium, and we rely heavily on strategic 
competitors to sell us uranium. Uranium imports from the former 
Soviet Union, Russia, Kazakhstan, and Uzbekistan represent 
almost half the fuel used by America's nuclear reactor fleet.
    Let me be clear: We have a more than ample uranium supply 
in the U.S. We have over 40 million pounds annually of licensed 
and partially licensed capacity, almost enough to fuel 
America's entire commercial nuclear fleet.
    When normal market forces are in play, U.S. mines are cost 
competitive globally. We have abundant high quality uranium 
resources for the future.
    The challenge today for any free market uranium company, 
whether it is in the U.S., Canada, or Australia, is that we are 
not competing with other free market companies; we are 
competing with governments that seek to use energy as political 
capital. State owned enterprises are not price sensitive.
    When global prices plummeted a decade ago, free market 
companies were forced to reduce production and lay off workers, 
while Russia, Kazakhstan, and Uzbekistan increased their 
production, drove down prices, and took control of global 
supply chains.
    The potential expiration of the Russian Suspension 
Agreement at the end of 2020 will only hasten the demise of the 
U.S. industry. The agreement already guarantees Russia 20 
percent of the U.S. market, but Russia has already contracted 
to increase imports significantly, should the agreement expire.
    The UPA strongly supports the Commerce Department's effort 
to extend RSA with protections for the domestic industry, as 
well as legislation to codify more restrictive limits on 
Russian uranium.
    We appreciate the support of Chairman Barrasso in leading a 
bipartisan effort to rein in Russian uranium imports.
    It is not just Russia; China is increasingly dumping 
underpriced uranium in the global markets. Data from the 
Departments of Energy and Commerce show that tens of millions 
of dollars' worth of Chinese uranium has entered the U.S. 
reactors in recent years. The U.S. must immediately take bold 
action to reserve a domestic supply chain for nuclear fuel in 
the United States.
    The UPA strongly supports the draft American Nuclear 
Infrastructure Act. Section 402 would codify the Nuclear Fuel 
Working Group's proposal to establish a strategic uranium 
reserve. This reserve would ensure domestic uranium supply in 
the event of market disruption and reduce our reliance on state 
owned enterprises.
    The Department of Energy's fiscal year 2021 budget requests 
$150 million for the uranium reserve, a modest investment, 
considering it will preserve the nuclear fuel cycle in the 
U.S., instead of ceding it to Russia, China, and their allies.
    The UPA also supports the U.S. nuclear fleet, our Nation's 
largest source of carbon-free baseload power. Section 301 of 
the draft bill would provide financial incentives to prevent 
the premature shutdown of nuclear power facilities.
    We appreciate the draft's recognition that such facilities 
should be buying American uranium. We look forward to working 
with the Committee to strengthen this requirement and ensure 
that nuclear power facilities receiving taxpayer funds procure 
U.S. mined and converted uranium.
    Also, codifying the recent MOU signed by the EPA and NRC 
would further strengthen the legislation by providing 
certainty, robust, effective regulation of the in situ uranium 
recovery industry.
    Thank you again, Chairman Barrasso, Ranking Member Carper, 
and members of the Committee. I look forward to your questions 
and working with the Committee to address these important 
issues.
    [The prepared statement of Mr. Goranson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. Well, thank you so much for your 
testimony.
    We will get to questions in a few moments, but first, we 
will go ahead to Boston, where Mr. Armond Cohen, Executive 
Director of the Clean Air Task Force, is joining us via Webex.
    Mr. Cohen, welcome to the Committee, and please proceed.

                  STATEMENT OF ARMOND COHEN, 
            EXECUTIVE DIRECTOR, CLEAN AIR TASK FORCE

    Mr. Cohen. Thank you very much, Mr. Chairman, and thank you 
for letting me participate remotely.
    Mr. Chairman, Ranking Member Carper, members of the 
Committee, I appreciate the opportunity to engage this morning. 
I want to especially thank Senator Whitehouse for his 
acknowledgement of our past work together, forging an agreement 
among consumers, environmentalists, and industry around what 
was then a very novel approach to conservation in the utility 
sector.
    I think that is an interesting model for what we can do on 
nuclear. The challenges are different than they were when 
Senator Whitehouse and I worked together years ago, but I think 
that the process could be the same. I think there is a huge 
center of gravity around moving this option forward.
    So, as an environmentalist and a climate change fighter, 
why am I here? Because managing climate change is just a huge 
challenge. We have to achieve deep reductions in carbon 
emissions by mid-century.
    It is not just electricity, which we usually focus on, but 
it is the rest of the system, which is 75 percent of total 
consumption, from transport, industry, and building heat.
    All of the work that we have done and that many other 
groups have done has suggested that we need to maximize our 
options to achieve success. So we support rapid expansion of 
renewables, like wind and solar, development of other renewable 
resources like advanced geothermal as well as nuclear energy 
and carbon capture and storage, which can help complement the 
suite of zero-carbon resources.
    Nuclear energy has some distinct contributions to make to 
this if we can get it right. First of all, it is where most of 
our current zero-carbon electricity comes from, as was noted by 
the Chairman at the outset.
    Its major advantage, maybe its first major advantage, is 
that it is always on. Having an always on, always available, 
zero-carbon source to complement variable renewables that are 
weather dependent, most studies have shown, can substantially 
reduce the cost of a zero-carbon grid by reducing the need for 
redundant renewable capacity and expensive storage.
    Second, it is very power dense, a lot of energy per square 
kilometer. Minimizing infrastructure footprints can be a key 
asset because infrastructure is not easy to build, and we need 
to increase our total amount of carbon-free energy at about 5 
to 10 times the rate that we ever have historically.
    Finally, because of its power density, it is also quickly 
scalable, at least when we are able to build standardized 
designs. For example, France substantially decarbonized its 
grid in 15 years, mainly with nuclear.
    Nuclear also has some distinct advantages regarding its 
ability to produce zero-carbon hydrogen, which we may get to 
later, which will be necessary for the things we can't 
electrify.
    But if we are going to replicate those past successes, we 
are going to need to make a lot of changes in the way we do 
nuclear, reducing costs, and improving delivery times. Some of 
this can be done with existing light water technology, but some 
of the advanced reactor designs will provide some distinct 
advantages in terms of lower costs, ability to standardize, 
faster to go from order to operation, lower material inputs, 
and so forth.
    With that in mind, there is a lot to like in this draft 
bill that would advance those objectives. I will mention a few.
    First of all, we very much like the notion of incentives 
for continued operation of the existing fleet. That will keep 
carbon out of the atmosphere during our transition and keep the 
infrastructure in place to build on.
    Second, getting the NRC to think ahead on permitting for 
non-electric applications in places like the industrial sector 
and other novel applications. We like the provisions that allow 
for more international cooperation with trusted allies in the 
areas of harmonized licensing and joint investment and domestic 
plants, front running the regulatory issues related to use in 
advanced manufacturing, and so on. We provided staff with 
detailed comments to refine and enhance some of these 
provisions.
    Before I close, though, I do want to echo Senator Carper in 
expressing our concern regarding the Section 201 and 203 permit 
and streamlining provisions. Our view is that the NRC currently 
has a very strong mandate from the Nuclear Energy and 
Innovation Modernization Act, as well as the environmental 
review provisions of the Fixing America's Surface 
Transportation Act of 2015, which streamlined environmental 
review. We think those provisions should be given a chance to 
work before we contemplate other major efforts in this area.
    I agree with previous comments that nothing could be more 
damaging to a relaunch of this industry than a perception that 
environmental safeguards have been specially trimmed. Nuclear 
energy can be safe, but it also has to be perceived to be safe, 
and maintaining strong environmental permitting review would be 
important to public confidence.
    There are several other provisions in this draft which I 
have noted in my testimony which I believe may be unnecessary 
or counterproductive, and we can get into that, but that was 
the major one.
    That said, we applaud the efforts of the Chairman, Ranking 
Member, and other members of this effort to move forward with 
modernization of this important technology to make it relevant 
to the extremely daunting challenge of managing climate change.
    Thank you very much.
    [The prepared statement of Mr. Cohen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. Well, thank you so much, Mr. Cohen, and 
as you stated, we are working together collaboratively. I 
appreciate your comments; they are very helpful.
    As Senator Whitehouse talked about, we are a bipartisan 
Committee in our efforts here. We want to make sure we get the 
best results.
    As Senator Carper said, we need to make sure that we bring 
our best game today and every day. So thank you for the 
comments to all three of you.
    We will start with questions.
    I would like to start with you, Mr. Goranson. We know 
American uranium production is right now at an all time low. 
This has had a devastating impact on production, certainly in 
our home State of Wyoming. To revitalize the nuclear fuel 
supply chain, the Department of Energy is proposing 
establishing a national uranium reserve. The discussion draft 
legislation follows through on that proposal.
    Will you please describe how this strategic reserve will 
help preserve the Nation's nuclear fuel supply?
    Mr. Goranson. Thank you, Chairman Barrasso. The U.S. 
uranium industry is faced with a situation where, over the last 
several years of declining commercial purchases, it has led to 
an industry that is on the verge of collapse.
    The uranium reserve would provide the U.S. Government with 
a backstop to support this industry in this vital piece of the 
industrial base, in order to preserve it and maintain a skilled 
work force, as well as maintaining the infrastructure necessary 
to produce uranium.
    It would also provide for a domestic basis in case we have 
supply disruptions from our foreign imports, as well as a means 
for supporting any future national security and also energy 
security needs for the country.
    Senator Barrasso. On this Committee, we have members of the 
Foreign Relations Committee. We have the Chairman of the Armed 
Services Committee.
    So I wanted to just ask you, Mr. Goranson, about Russia. 
Russia has weaponized its energy supplies; all of us are well 
aware, in terms of their efforts to advance their strategic 
interest. With regard to uranium, in Russia, they tend to 
manipulate the market by flooding America with cheap uranium to 
undercut out Nation's producers.
    The Commerce Department right now is working to extend 
existing caps that limit the import into the United States of 
Russian uranium. If the caps are allowed to expire, Russia 
could have unlimited access to our uranium market. So I am 
leading efforts to make sure that doesn't happen.
    Could you explain to the Committee why it is so important 
that we establish limits on how much Russian uranium comes into 
the country, and do it by law?
    Mr. Goranson. Chairman Barrasso, thank you. As you know, 
the Russian Suspension Agreement has been in effect since the 
early 1990s. It is in place, and it has gone through several 
sets of reviews where the Commerce Department has determined 
without that suspension agreement, the Russians will dump 
uranium on the market. That is harmful for our domestic 
industry and for our national security.
    As we go forward, looking forward to the Commerce 
Department's efforts to renegotiate the suspension agreement 
and extend it, we know one thing, that the Russian government 
we are dealing with today is not the same Russian government we 
were dealing with in 1992 or around that period.
    It is important, in my perspective, to see legislation to 
codify those terms on the Russian Suspension Agreement to 
assure that it shows that the U.S. Government, the whole U.S. 
Government, supports this vital piece of protection of our 
domestic industry, but also to keep from becoming extremely 
reliant on a strategic competitor.
    Senator Barrasso. Ms. Roma, we talked earlier, and Senator 
Whitehouse did as well, on modernizing the regulatory approach. 
So tomorrow's advanced nuclear reactors, they are going to be 
smaller, safer than today's designs. They will also have a 
reduced environmental impact while they are generating clean 
energy.
    The draft bill that we are working on requires the Nuclear 
Regulatory Commission to examine its environmental review 
process, and then identify opportunities to update outdated 
environmental requirements.
    What aspects, Ms. Roma, of environmental reviews must we 
update to enable the safe deployment of these new technologies?
    Ms. Roma. Well, there is a whole handful that I can think 
of, but just a few off the top of my head.
    The NRC can examine the use of generic environmental impact 
statements to address issues that are common across several 
different advanced reactor designs, such as the use of high 
SALAU fuel, or other common issues that would enable a 
subsequent site specific license to incorporate by reference 
that earlier analysis, and streamline the NRC's subsequent 
review of a site specific application.
    Another area that the NRC could look to is reevaluating the 
presumption that advanced reactors necessarily require an 
environmental impact statement.
    The one thing that I would note is that the NRC requires an 
environmental impact statement for power reactors, which have 
traditionally been large scale, light water nuclear reactors. 
But it doesn't require an environmental impact statement 
necessarily for smaller reactors, such as commercial non-power 
reactors, which tend to be 10 megawatts or less.
    A lot of the designs that we are looking at in the advanced 
reactor designs are micro-reactors, so they would fall within 
that window. The only difference between the existing 
regulations for commercial non-power reactors and for power 
reactors is power requires EIS. So one thing that they could 
look at is that as well.
    Another way that they could streamline is looking at co-
located facilities and the alternative siting analysis that you 
need to do.
    Oftentimes, new reactors are located at the same site as an 
existing reactor. Yet, under the NEPA methodology as 
implemented by the NRC, there is a very significant, in depth 
analysis of putting that reactor at another location that would 
be a greenfield site, for example, that needs to be analyzed, 
where the NRC staff flies out and looks at all these other 
sites, when it is just going to come back to putting it at the 
exact same site as the existing nuclear power plant.
    So there are a number of areas that the NRC could 
streamline and improve efficiencies. But the one thing that I 
would note is that, I actually thought, I understand and I hear 
the concerns that people are raising about doing a less in 
depth environmental review.
    But I don't actually see that in the draft legislation. The 
draft legislation asks the NRC to look at ways that it can do 
the review more efficiently by looking at lessons learned and 
other areas that it can do a better review, not a less in depth 
review.
    I just want to go back to the earlier comment that I made 
in my opening remarks. Longer doesn't mean better. The NRC, for 
the Fermi 3 environmental impact statement, the NRC wrote 2,200 
pages. That is a lot of writing, not a lot of analysis.
    So I think that the NRC can look at ways where it is not 
necessarily making very long environmental reviews, but doing 
better environmental reviews, that would be better for 
everybody.
    Senator Barrasso. Thank you, Ms. Roma.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Again, our thanks to our witnesses, those who are really 
here, and those who wish they were here.
    I want to start off with a question or two to Mr. Cohen if 
I could. Less than 2 years ago, Congress passed, as you know, 
the Nuclear Energy Innovation and Modernization Act, which made 
significant changes to the NRC's budget structure and to the 
NRC's regulatory framework for advanced nuclear reactors.
    This law's significant changes include caps on NRC's 
budget, which phase down over time, and restrictions on the 
amount of money that the NRC can charge industry. The budget 
caps are expected to ratchet down starting, I believe, this 
coming fiscal year. But I am already hearing reports that the 
NRC's budget may be too low to meet its existing workload.
    In February of this year, the NRC Inspector General 
surveyed 2,800 NRC staff to assess NRC's safety culture. The IG 
reported that 64 percent of the surveyed NRC employees said 
they were worried about the NRC's budget and what it might mean 
for the NRC's future.
    My question for you, Mr. Cohen, have you heard similar 
concerns about the pending NRC budget cuts, and how important 
is it for the NRC to have the funding necessary to successfully 
fulfill its mission? Please proceed.
    Mr. Cohen. Right, thank you. Yes, Senator Carper, we do 
share that concern. We have heard both from employees at the 
NRC as well as some of the advanced reactor developers, who are 
concerned about constraints. Obviously, the developers are 
interested in getting things moved through as quickly as 
possible.
    We are concerned about the funding flows. Again, it goes 
back to the question of credibility and the ability of NRC to 
do its job, which is really critical to getting this industry 
back in business at scale. So we do share that concern.
    In my testimony, I suggested that the caps that were put in 
place in the Nuclear Energy Innovation and Modernization Act be 
revisited and removed, or at least that the ratchet that starts 
at 30 percent, I believe, of the 2021-2022 request at least be 
frozen there and not be reduced further.
    We are extremely concerned about understaffing at the 
agency. It can always be more efficient. I know that Chairman 
Svinicki is working very diligently to improve efficiency at 
the NRC. But we think overly restrictive funding is not going 
to help the cause.
    Senator Carper. OK, thank you. I have one more question for 
you, and then a question for Ms. Roma.
    My second question for you, Mr. Cohen, deals with NEIMA and 
[indiscernible] and advanced nuclear framework. In your written 
testimony regarding the draft American Nuclear Infrastructure 
Act, you state that, ``This bill proposes some alterations to 
environmental permitting that this committee must reconsider. 
These provisions are not necessary and could even be damaging 
to the future of the advanced nuclear industry.''
    My question is, Mr. Cohen, can you further discuss for us 
why you believe the streamlining provisions in the Chairman's 
draft legislation could be damaging to the advanced nuclear 
industry?
    Mr. Cohen. Thank you. As I said in my opening remarks, 
Senator Carper, I think the major concern is that this industry 
needs not only to be safe, but to be perceived as safe. I think 
at least among the nuclear critics, there is already a view 
that the modernization that was undertaken in the Modernization 
Act that moves the agency to a more risk informed, performance 
based licensing approach is already a step, I guess from their 
standpoint, it is a step in the wrong direction; from our 
standpoint, it is a step in the right direction, to move from a 
prescriptive, burdensome, sort of widget based review to 
something that is more like looking at the whole safety case. 
We already have, I believe, a good framework in place to move 
things forward faster.
    Then there is the FAST Act, or the Federal permitting, the 
Surface Transportation Act Amendments of 2015, that further 
provide environmental permitting streamlining. These are very 
significant provisions that apply to the NRC already.
    There is a lead agency, there has to be a plan, all the 
agencies have to coordinate, there is a fixed schedule, you 
can't deviate from that schedule without extraordinary 
circumstances.
    It expands the agency's ability to provide categorical 
exclusions, which the NRC could do. It establishes a Federal 
permitting improvement steering council, which can make further 
streamlining initiatives. And then it restricts judicial review 
of NEPA related reviews. It is a very substantial streamlining, 
again, not universally supported, but nonetheless, it is law.
    My answer really is that with these two major efforts to 
clear the way and expedite environmental and safety review 
already in place, our view is that should be given a chance to 
work out. If we have problems down the road, then we will talk 
about those problems.
    I just should say, I am a cofounder of the Nuclear 
Innovation Alliance, which is an alliance of environmental 
organizations, academic groups, and developers. I can tell you 
that this is not what I am hearing that is priority No. 1 for 
the advanced reactor sector, or even priority No. 2.
    I think that while there might be some perceived gain, I 
believe that the negative consequences of yet a third major 
reform on top of the previous two could undermine confidence in 
the integrity of the permitting process.
    That is an issue of perception. I think we can argue the 
merits, but I think at least at a level of perception, this 
would be a bad move at this time when we are trying to get the 
industry back on its feet.
    Senator Carper. OK, thanks very much for those thoughtful 
comments.
    Mr. Chairman, when we come back for a second round, I have 
one follow up with Ms. Roma and maybe Mr. Cohen on clean 
hydrogen production at reactor sites, which I think is quite 
promising.
    Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Right now, we have Senator Capito joining us remotely.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I want to thank our witness panel today.
    Ms. Roma and Mr. Cohen, I have been working in a bipartisan 
fashion, particularly with Senator Whitehouse, on the Clean 
Industrial Technology Act, which is to promote the 
decarbonization of industries that inherently create greenhouse 
gas emissions, like steel production. Nuclear energy is 
primarily viewed by the public in terms of power generation.
    So, your testimonies touched on nuclear technologies may be 
applied to industrial non-electric purposes, such as generating 
heat for use at a chemical facility, or hydrogen 
fractionization, or desalinization. Section 204 of the American 
Nuclear Infrastructure Act explicitly directs the NRC to review 
potential regulatory barriers to such deployments.
    In your opinion, is the NRC currently equipped to review 
those applications for deployment of nuclear technologies 
outside of the spaces of power generation and medical research 
reactors, and what obstacles do you think they might face in 
that regulatory space?
    Ms. Roma, I will go to you first.
    Ms. Roma. Thank you. That is a wonderful question.
    The NRC is well equipped to probably handle a commercial, 
non-power reactor design that is similar to a research reactor 
that has already been deployed in the United States. So that 
would be a smaller version of a light water reactor design.
    They have an existing guidance document that applies to 
that. They are looking at them now and applying them to the 
medical isotope community that is looking at getting licenses.
    I think if you look at how the NRC regulations would apply 
to the non-power uses with advanced reactors, I think that that 
is an area that the NRC should further evaluate to do a gap 
analysis of where its regulations may fall short, or what 
guidance may need to be examined.
    I am just going to give a quick example. I was working with 
a medical isotope client that was looking at preparing a 
commercial, non-power reactor application. So really, a first 
of a kind type application.
    One of the things that we rolled up our sleeves and 
realized, is how many times the NRC makes a distinction between 
a power reactor and a non-power reactor that doesn't really 
have a regulatory necessity.
    The NRC just implemented a regulation thinking that, Well, 
the only types of reactors that would do this are large scale, 
light water, nuclear power reactors. So they put the word power 
in there.
    For example, a medical isotope production facility building 
a commercial non-power reactor can't apply for a combined 
operating license. It needs to submit a separate application 
for a construction permit, and then another application later 
for an operating license.
    Just looking at the regulations and evaluating ways that 
there could be unintended consequences from the ways that the 
NRC worded their regulations at the time of the rulemaking I 
think would be helpful to ensuring when those applications come 
in, the NRC is prepared to evaluate them.
    Senator Capito. I am going to skip Mr. Cohen. She gave a 
very good answer there, very complete answer there, because I 
want to get a chance to get a last question in.
    There was an article in the Wall Street Journal yesterday, 
you can probably see the headline here, Saudi Arabia, With 
China's Help, Expands Its Nuclear Program. My question is, as 
you read through the article, you couldn't distinguish what the 
actual usage was going to be for the help that they are getting 
from China. Is it power, is it a weapons program? A lot of 
unanswered questions there.
    I guess my question is, where do you see, since these 
reactors last for maybe a hundred years, this relationship of 
Saudi Arabia and China in the nuclear space, do you feel that 
is an issue? How are you all looking at that?
    Mr. Cohen, I will go with you first. I am going to ask 
everybody that question.
    Mr. Cohen. Senator Capito, we don't necessarily focus as 
much on the geopolitics of nuclear as some of the economic 
issues. But yes, I think it is a concern, and I would just flip 
that around and say, China is going to do what it is going to 
do. It has a mercantile model of export, often at below cost 
just for strategic reasons.
    We are not going to do anything about that. I think we need 
a better mouse trap, and we need to be talking to our allies.
    An example is what we did in the United Emirates in 
collaboration with the Korean institutions to build a western, 
or at least an OECD originated reactor, and under sort of 
western standards, with western non-proliferation agreements 
and so forth.
    So I think our view is that the only way to win this one is 
to really come with a very robust, cost effective product, but 
also bring along the kinds of things that are in this bill in 
terms of international coordination of licensing. The Chinese 
will do what they do, and we may not win every commission. But 
we are not in the running right now.
    Senator Capito. Right. Thank you.
    Mr. Goranson, do you have a comment on that?
    Mr. Goranson. Senator Capito, yes, I do. As you have 
mentioned in your question, is that once a nuclear power plant 
is built into another country, that creates basically a hundred 
year relationship between those two entities.
    This is another case for, as I mentioned in my testimony, 
as that where countries like China can use this to leverage 
foreign policy objectives. The Saudis have been a traditional 
ally of the United States for quite some time, but bringing the 
Chinese in and giving them this opportunity to be able to have 
such a critical part of their infrastructure under their 
control could create some challenges in our foreign policy as 
we move forward in the future with our foreign policy 
objectives.
    As far as an answer as to how to resolve that, I am not an 
expert in foreign policy myself. But I will say that this is 
another example of why we need to be cognizant of these state 
owned enterprises where they can go in and use the leverage of 
their government to be able to compete.
    The U.S. companies did try to compete for that nuclear 
technology in Saudi Arabia and also other nuclear fuel supply 
as well. As you can see, the state owned enterprises have an 
edge over the United States.
    Senator Capito. Thank you.
    Ms. Roma, do you have a comment on that?
    Ms. Roma. I do. Thank you, Senator. To answer your question 
directly, does this concern me? Yes, it does concern me that 
China is providing nuclear technology and services for Saudi 
Arabia.
    I think it gets back to the crux of my testimony that 
underscores the importance of the U.S. asserting global 
leadership so that we can ensure that we have the highest level 
of safety and nuclear non-proliferation standards in place.
    To echo the statements of the other panelists, particularly 
Mr. Cohen, what can we do about it? Well, right now, not much. 
We are not well positioned to compete against China, 
particularly in areas like Saudi Arabia, because we don't know 
if they want to build any of our plants.
    That is why it is the importance of implementing the 
provisions of ANIA and ensuring that we can get out in front, 
particularly on these emerging technologies where the U.S. 
currently has the global lead in advanced reactors and in 
fusion facilities as well. We are going to lose the next 
generation of lead that we have because we are not going to be 
able to get our act together in time to compete against Russian 
and China.
    Senator Capito. Right, and as we repeated, these are 
generational decisions that are being made, so thank you all 
very much.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Let me thank all of our witnesses for their testimonies. 
This is a really important hearing.
    In Maryland, nuclear power is very important, as it is 
around our country. We have two nuclear reactors located at 
Calvert Cliffs. They produce about 20 percent of our State's 
electricity needs, and 55 percent of our carbon-free 
electricity needs. It is an important source of energy in the 
State of Maryland, and of course, in our country.
    I want to just underscore the point that Senator Carper 
made earlier with Mr. Cohen, and that is, I am proud of the 
work force of NRC located in the State of Maryland, 
headquartered in the State of Maryland. They are understaffed, 
and they are losing a lot of their expertise.
    So I think the budget support here is an important part of 
what we do in regard to modernizing our nuclear energy fleet, 
as well as preserving our aging fleet.
    Senator Barrasso, you are absolutely right. This is an 
issue that has brought our Committee together. We have worked 
in a bipartisan manner in order to advance nuclear energy in 
this country. I am proud to be part of that team.
    I know your bill was introduced as a way to advance our 
mutual efforts. You hear that we have concerns in regard to the 
environmental aspects, and in regard to the traditional role of 
the NRC. So we look forward to working together to try to come 
to grips with the differences so that we can continue to 
advance this issue in the best tradition of our Committee.
    Your bill deals with several aspects, including how we deal 
with advanced nuclear reactors, but also what do we do in 
regard to our existing nuclear fleet.
    Senator Cramer and I have introduced a different approach 
dealing with our fleet, in that it provides an investment tax 
credit of 30 percent so that we can maintain our current 
nuclear fleet.
    The challenge today is the cost of energy. As we know, it 
has fluctuated, declined, and it has made nuclear power much 
more challenging. The tax codes were developed at different 
times, giving certain incentives to other forms of energy that 
the nuclear industry does not enjoy.
    My question to the panel is, how critical is it for us to 
deal with the economics of the pricing of energy as influenced 
by the policies of our own country in the tax code and 
elsewhere that could affect the ability to have economical 
nuclear modernization done for energy?
    Mr. Cohen. Mr. Chairman, I would be happy to take a swing 
at that, if you would permit.
    Senator Cardin, I agree with your statement of the problem. 
Basically, the bogey right now in the market is low cost 
natural gas, and we know that several, many units are not able 
to compete with that carbon emitting fuel.
    The academic answer is that we need some sort of carbon 
policy that would level the playing field. That is happening in 
some States, but it is anyone's guess as to when that might 
happen federally, so we are really dealing with second best 
solutions.
    CATF has been very active in States like New Jersey to 
enact provisions that would do much like what your bill did to 
recognize the value of the carbon-free energy from the nuclear 
units and enact a sort of a per unit or per kilowatt-hour 
payment.
    That is the reason we support the section of this draft 
that would provide for a Federal version of that. It is, 
frankly, catch as catch can as you go around to the States.
    As the opening anecdote suggested about Illinois and Ohio, 
there is often mischief that can occur when some of those deals 
are done. So I think a very transparent Federal support 
mechanism for existing nuclear units to run makes a lot of 
sense.
    The questions of where the money comes from is, of course, 
important, but the design that we see in the draft is 
fundamentally sound. Our only comment there is that we would--
the draft as written doesn't really put a cap on that payment. 
There should be some reasonable upper cap on the payment. You 
don't want to have something completely that is out of whack, 
with say, the value of the carbon avoided.
    We recommended actually using as a possible benchmark the 
2.5 cents per kilowatt-hour subsidy for wind that is currently 
in the production tax credit.
    It has to be transparent; the public needs to understand 
that someone is reviewing these numbers, and we are not just 
giving out goodies without making sure that they are needed.
    Finally we recommend that we defer caps on roll, because 
EPA is not really an economic regulator, and they may not be as 
competent to review the numbers.
    Anyway, Senator Cardin, that is a long answer, but 
fundamentally, we support this kind of Federal intervention 
because we think doing this State by State is going to be a 
very long process, and we are probably going to lose a lot of 
carbon-free energy in that process.
    Senator Cardin. I would just comment that there are 
different ways to do it, different opportunities in Congress. 
Sometimes we have the opportunity through the tax codes, 
sometimes through appropriation and legislation.
    So I think I have to recognize there is an imbalance right 
now of carbon. I support that, I think that makes sense, but we 
have to look at what it is feasible to level the playing field 
so that nuclear power can compete, and therefore investments 
will be made in its modernization.
    Mr. Chairman, I don't have a clock in front of me, I don't 
know if I have used my time, but if either of the other two 
witnesses want to respond, I would appreciate their views on 
this.
    Ms. Roma. Thank you. I agree with the sentiments that Mr. 
Cohen just expressed.
    I think that moving this to the Federal level from the 
State level would ensure some consistency. I think it provides 
much needed support that recognizes the carbon-free benefits 
that nuclear power provides that it is currently not 
compensated for. There are probably a number of different ways 
that that support could happen, whether it is a production tax 
credit or through this EPA measure that is set forth in ANIA.
    Senator Cardin. Thank you.
    Mr. Goranson. Senator Cardin, I will add that with respect 
to--from my perspective, if we go back and look at the 
President's Nuclear Fuel Working Group Report, in that report 
it also states, one of the important portions of part of that 
is to value what nuclear power brings to its generating, that 
is, the clean air side of it, the baseload, the 24/7 power, is 
vital to maintaining a strong economy as well as vital to 
supporting our Nation's growth and place in the world.
    So that is why the UPA has taken such a strong support for 
Section 301, which provides some of that support.
    Senator Cardin. Thank you, Mr. Chairman.
    I thank the witnesses.
    Senator Barrasso. Thanks, Senator Cardin.
    Senator Cramer.
    Senator Cramer. Thank you, Mr. Chairman.
    Thanks to all of our panelists. I have been sitting here 
the entire time listening to every single word from my 
colleagues on both sides and all of the witnesses.
    First of all, I am encouraged by it. Second of all, I 
continue to ask the question, how did we let this happen? How 
in the world did America ever allow its superiority in this 
realm slip away? Not just slip away, but we acquiesced it to 
our most dangerous adversaries. I think we need to get it back 
before it is too late.
    One of the thoughts that has come to mind as I have been 
listening to some of this, Ms. Roma, when you were talking 
about the stockpiles or the reserves--whenever I bring up 
reserve to people, there are people that will say, Oh, but we 
have several years of reserves. We don't really need to worry 
about that.
    Then I think about the state owned competitors that we 
have, who are run by emperors for life. Maybe you could just 
speak to the long game if you will, the importance of this, not 
just in the near future, but the consequence if we don't stop 
the bleeding soon.
    Ms. Roma. The question that you asked, how did this happen, 
is something that I have studied extensively for my entire 17 
year career in this field.
    I think that there are a lot of different factors that went 
into it. But one of the things that strikes me is that there 
seems to be a lot of complacency. There seems to be just an 
acceptance within the industry that we are the best, and of 
course, everybody wants the best, and we operate the best 
plants. So, by golly, we can build the best plants and design 
the best plants, and the rest of the world will want our 
plants.
    That happened in the last generation of build. But then the 
U.S. stopped building, and other countries continued to build.
    Countries like China are fairly newer to nuclear, and now 
they are doing lots of building, and so is Russia. They 
recognize, probably because of the integration of their state 
owned enterprises with their government, that if we can export 
this technology and embed ourselves in critical infrastructure 
in foreign countries, then we have the ability to exert our 
geopolitical influence.
    I don't think that the United States was looking at it with 
that holistic a viewpoint. So I think that is where we are now, 
and we just need to accept that fact. One of the best 
advantages that we have is we continue to operate the most 
efficient fleet and the largest nuclear fleet in the world. We 
need to continue to do that in order for other countries to 
want our input and our advice on what are the safety standards, 
what are the nonproliferation standards, what are the 
technology best practices, what are the operational best 
practices that we should implement.
    If we don't operate as many nuclear power plants as we do, 
and we don't operate them as well as we do, they will stop 
asking us.
    The second aspect is, right now, the United States, through 
our incredible universities and our national labs, we are at 
the forefront of advanced reactor development. We have numbers 
and numbers of advanced reactor initiatives. We have numbers of 
fusion companies that are looking at building demonstration 
facilities and commercially deploying their technologies. They 
are struggling to do that in the current climate that we have.
    So anything that we can do to help the NRC do a more 
efficient review, to put accountability on them for how much 
money it costs to do a review for a reactor design, and making 
sure that the resources they spend are achieving the objectives 
that they intend for it to achieve, such as in its 
environmental reviews, those are all good things, and those all 
better position us to be able to help with developing programs 
around the world.
    Senator Cramer. This is so fascinating. I going to skip all 
my rate design stuff. I am a former regulator, nerd, but you 
just touched on something that I think is really, really 
critical. I think this is applicable to lots of things that we 
do in the United States.
    I mean, China and Russia have taken our invention of 
hypersonic missiles, for example, and they are running with it 
while we are catching up. So often we do this.
    I would rather export our excellence than import their 
mediocrity every time. But both of you have talked about--but 
all of you have talked about the supply chain. The supply chain 
that I worry the most about compromising is the intellectual 
supply chain. We are going to wake up one day, and nobody--to 
your point about the expertise, it is not going to be available 
because the opportunities weren't available.
    Maybe in the remaining moments, you could speak to that, 
sir.
    Mr. Goranson. Senator Cramer, yes, I can. You are right. 
What we see here is our critical talent, what I consider one of 
the most key parts of our industry. I can speak from the 
uranium industry that, over the last few years, we have seen a 
lot of people come in through the domestic uranium industry, 
new hires, people right out of college.
    Unfortunately because of our competition with these state 
owned enterprises, as recently as last April, I actually had to 
go tell talented, experienced people that their services were 
no longer needed because of market conditions created by our 
current situation.
    Unfortunately, since 2013, I have learned that that story 
doesn't get easier by experience. I have had to do it several 
times. It has been a decline that has been very dramatic and 
very marked.
    What is important, I see, is that we have to keep the 
talent, we have to keep the people. If we don't have--speaking 
from the uranium mining perspective, there is no school of 
uranium mining you can go to. It is a skill set and an industry 
that is unique amongst the different extractive industries 
simply because we deal with uranium.
    So we have to have trained people. We want to do it safely; 
we want to be doing it in an environmentally protective manner. 
That means we have to have smart people who understand our 
regulations and understand how we do things on a regular basis 
to not only produce uranium, but also do it safely and 
efficiently.
    Senator Cramer. Thank you, Mr. Chairman.
    I am well over my time, but maybe in another round I will 
ask Mr. Cohen about some rate design things. I think 
reliability, for example, dispatchability has value that should 
be recognized in rates as well as the environmental pieces of 
it.
    So with that, thank you.
    Senator Barrasso. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thanks, Chairman.
    Just to nail down a few things that I think are well 
established in this hearing, there is value to the carbon-free 
nature of electric generation that does not create carbon 
emissions. Does anybody disagree with that proposition, or is 
that agreed?
    Mr. Goranson. Agreed.
    Senator Whitehouse. Agreed. And the nuclear industry is now 
ordinarily not compensated for that value. Does anybody 
disagree with that statement?
    Agreed, OK.
    And finally, the effect of that failure to compensate the 
industry for that value creates what an economist would call a 
market distortion. Does anybody disagree with that? So that is 
our situation. We have a market distortion that hurts the 
nuclear industry because it is not compensated for one of the 
assets of its power.
    Correct? Yes, yes, yes? OK, good.
    I think off of that platform, we have got a lot of 
opportunity to build here in bipartisan fashion. I would like 
to drill down now a little bit into the question of nuclear 
waste storage. That, I think everybody will agree, creates 
cost, creates hazard, creates danger. It is a liability in an 
economic sense to have nuclear waste stockpiled at our 
facilities. Correct?
    So there is value to finding a way to solve that problem. 
The question that I have is, as we embark on nuclear 
innovation, how can we make sure that the innovators see the 
value of that?
    Because if that is not on the table, then what you are 
going to see is a nuclear innovator who will say, I am going to 
put my money, my expertise, and my backing behind this power 
that costs 99 cents because it is cheaper than this other power 
that costs a dollar and one cent. They will save the two cent 
difference.
    But if the dollar and one cent used the nuclear waste 
stockpile, that is a huge value to America and to society. And 
a little bit like our problem with the market distortion of not 
pricing carbon, not pricing the value of drawing down on 
nuclear waste stockpile and turning it into a positive use, I 
think risks create on a smaller scale the exact same economic 
distortion.
    So let me ask Mr. Cohen first, since he is coming 
electronically, am I right that that is a problem? Is that 
something we should continue to work on to find an economic 
solution, so that the direction of innovation is not distorted 
away from the value of solving, at least to some degree, the 
nuclear waste stockpile problem?
    Mr. Cohen. Yes, and Senator Whitehouse, I absolutely agree 
with your approach. I applaud the provision of this draft that 
would actually require an annual report to Congress to quantify 
that liability and describe some of the opportunity. Yes, we do 
need to think about nuclear waste, spent fuel, as a potential 
asset.
    The first thing we can do though, I think, is sort out the 
issue of the repository. It doesn't need to be first, but it 
should at least proceed in parallel. Regardless of reuse of 
spent fuel, there will be a residual amount, probably a 
significant amount, that will need to be dealt with and 
isolated for many, many years.
    Senator Whitehouse. Yes, that is a separate and larger 
issue. I am trying to focus on the innovation direction piece, 
here.
    Ms. Roma.
    Ms. Roma. I agree that it is important to consider the 
spent fuel considerations for innovation.
    Two points, just to add. One, a number of the advanced 
reactor technologies that are under development embed in their 
commercial case the spent fuel consideration. Having sat 
through investor meetings with private equity and venture 
capitalists looking at investing in them, one of the first 
questions they say is, well, what about the waste?
    Senator Whitehouse. Yes.
    Ms. Roma. And so a lot of them are looking at, can we use 
spent fuel, can we use natural uranium, so we don't have high 
level nuclear waste on the back end coming out? So, it is 
embedded in a number of these designs, but not all of them.
    Senator Whitehouse. Yes. If you are a utility buying, then 
you have this incentive. If you are not, then you don't, and so 
it is not a complete market response, it is only in those 
specific cases, correct?
    Ms. Roma. No. For any advanced reactor designer, who aren't 
necessarily looking at just selling to utilities, they actually 
consider it in their design because they have to go and sell 
this to customers, and customers are like, Well, what about the 
spent fuel?
    Senator Whitehouse. And some of them will be utilities?
    Ms. Roma. Yes. Some of the will be utilities. Some of them 
won't be.
    Some of them are intended to be foreign countries that have 
no nuclear power programs right now and won't be able to handle 
the nuclear waste. So that is why they are trying to consider 
it as part of their commercial case. But some of this is pie in 
the sky technology advances that they are hoping to implement, 
and they haven't yet.
    But to your second point about innovation, refer back to my 
earlier comments that we are at the forefront of advanced 
fission and fusion technology development.
    America is a great innovator. When it has the support it 
needs, it can do leaps and bounds. So I would urge everybody to 
consider any financial support for innovation for spent fuel, 
ways to handle spent fuel.
    Senator Whitehouse. My time is up, so let me interject 
here, ask Mr. Goranson if he wants to add something, to add it 
as a question for the record, since my time is up.
    But I do want to say, as somebody who has watched this for 
a while, there have been times when our leadership in this 
space has left a lot to be desired. There have been times when 
our innovation has not been so great.
    A lot of our existing reactor fleet is big, cludgy, 
complicated, non-standardized, inefficient, not great design by 
anybody's standards.
    I believe that is because they were built in a cost-plus 
environment, in which the utilities figured, spend everything 
you can get away with, because you are going to earn a return 
on equity on whatever you can legitimately put into this thing. 
That is not a path to innovation.
    Now, I think we are on a much stronger path to innovation. 
But I think we have got to be candid and clear that America has 
not always been a great and successful innovator in this space. 
There has been a lot of cludgy stuff that got built, and there 
have been a lot of failures as a result.
    So let's make sure innovation really works.
    Thank you.
    Senator Barrasso. Thank you, Senator Whitehouse.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chairman. I have been here a 
year and a half, and in the general context of what we are 
talking about, I have always been interested in the 
environment.
    I think Sheldon's comments on finally starting to quantify 
these external costs makes a lot of sense.
    We started the Climate Caucus here in the Senate less than 
a year ago, and I probably worked as hard on it, maybe not 
quite as much as trying to reform healthcare. The healthcare 
industry is fighting everything that we are trying to do. It 
does not want to reform itself.
    My observation has been across the different parts of 
energy, from agriculture to power generation, transportation, 
and more broadly than that, technology, finance, they are 
interested in being part of the solution.
    So I think my frustration is that we have got something 
that does not emit carbon dioxide. But it seems like we have 
got a large gulf between light water, the current fleet, which 
seems to be operating fairly safely across the world, at least, 
recently. How do we get from where we are to where we need to 
be by 2050?
    The first question would be for Ms. Roma. What can we glean 
from what France has done, to where they are now, I think, 
close to 80 percent of their power generation? What have they 
done that we haven't, and is it just that they are taking the 
risk?
    Please comment on that, and then I have a question for Mr. 
Cohen.
    Ms. Roma. France, I believe, gets about 80 percent of its 
power from nuclear power. It did that because it needed energy 
security and independence, and it figured if it builds all 
these nuclear power plants, then it controlled its own power, 
and didn't rely on other countries for its power. That is how 
they got to where they are.
    We had a lot more alternatives, and we had a lot more 
natural resources in the United States, and so we have a more 
diverse energy portfolio.
    Senator Braun. Is there anything we can learn from them 
specifically since they have put so many eggs in one basket? 
Will they try to migrate from light water to advanced 
technology to kind of hedge their safety bets over time?
    Ms. Roma. I am not sure if they are going to migrate to 
advanced reactors. They are considering it, but they already 
get so much power from their operating fleet, which can operate 
for decades without having to develop a new technology.
    One of the lessons that we could look to for France is how 
they handle spent fuel, how to reduce its volume and size and 
storage.
    Senator Braun. Thank you.
    Mr. Cohen, in a more general sense, how do you see that 
interplay between our existing fleet and advanced technology, 
nuclear technology? What is your vision of where that can go 
between now and 2050? Because to me, it looks like it is the 
one bird in the hand that we have.
    I think we are already running into maybe bottlenecks as it 
relates to solar and wind, and it has got other disadvantages. 
Kind of give me your vision there of how you see that reliance 
on our current fleet, and advanced nuclear technology, and what 
percentage it would be of total energy generation by 2050.
    Mr. Cohen. Well, if we don't get busy, it is going to be a 
very diminishing share, I am afraid.
    Just going back to your previous question, Senator Braun, 
the secret to the French nuclear program was standardization, 
basically, settling on a design and building the same thing 
over and over again with the same people. We never did that in 
the United States. We actually had increasing costs rather than 
declining costs, as France was able to do.
    So the key is getting back to that world where you are not 
building one off big units that have to be built mostly onsite.
    I think my answer to you is basically for the near term, in 
the next 10 years, we should be doing more export of 
conventional reactors. That is the kind that are being built 
right now in United Emirates.
    But innovation really offers us a number of opportunities 
to reduce material inputs to these units, making them much more 
manufacturable, much more standardizable, if that is a word. 
When we can get into that mass production mode, we are going to 
have a much better shot at scaling.
    So that is where the innovation is really important, and 
that is a long discussion about what specifically needs to 
happen in the R&D space.
    But fundamentally, my view is that we do need a different 
kind of business model and probably technology model to get to 
the scale that we need to do in the time that we have.
    Senator Braun. Thank you. That makes sense, and I think 
that we can learn a lot from what we see works elsewhere if we 
want to hit the target by 2050.
    Thank you.
    Senator Barrasso. Thank you.
    Senator Booker.
    Senator Booker. Thank you very much, Mr. Chairman, and to 
Ranking Member Carper, as well.
    I just want to say some introductory comments at the top, 
that I share the bipartisan remarks that have been said at the 
beginning. It is been an honor to work on this legislation. I 
have seen this as a space of urgency since I came to the 
Senate.
    But we have, as Senator Whitehouse put it, terrible market 
distortions that undermine the value and the important part of 
our energy blend that nuclear is.
    In fact, it not only has an important role, I think it has 
a critical role as we transition as a Nation to net-zero carbon 
emissions as quickly as possible. If we are going to avoid the 
worse impacts of possible climate change, nuclear has got to be 
a critical part of that.
    It also has a national security issue as had already been 
said in this hearing of the challenges that we see from foreign 
adversaries that have taken our singular positioning in this 
kind of energy away from us as they have charged to embrace 
this while we have gotten entangled in a lot of things that 
undermine nuclear energy.
    I believe there are two really critical sets of policies 
that the Federal Government should be focused on now if we are 
going to move forward. That is first, we need to enact policies 
to prevent the existing fleet that we have of reactors from 
shutting down permanently, and our existing fleet of reactors 
that do provide that majority of carbon-free electricity that 
is currently generated, losing these plants would be a massive 
step backward that we cannot afford to take in the fight 
against climate change.
    Second, we need to enact policies that facilitate the 
development of next generation advanced reactors. This is a 
discussion at this hearing which I think is of such urgency. 
Advanced nuclear reactors have the potential to be even safer, 
more economical, generate less waste than existing reactors.
    That is why I am so proud to be a part of the bipartisan 
work we have done in this Committee in recent years related to 
nuclear energy. I really believe that with the incorporation of 
some of the feedback that Senator Whitehouse and myself have, 
as well as from stakeholders, we can now really craft this 
important piece of legislation and move it forward out of 
Committee in a very bipartisan manner.
    I just want to ask really briefly in the 2 and a half 
minutes I have left, for Armond Cohen.
    Mr. Cohen, can you just explain why the Clean Air Task 
Force believes that it is important to have nuclear energy as a 
part of that mix as we try to de-carbonize our electricity 
generation as quickly as possible?
    Mr. Cohen. Certainly. If we are going to get to zero by 
mid-century, you do the math, and you say, we have to basically 
build carbon-free energy at 5 to 10 times the rate that we ever 
have in the past. Those numbers are really daunting.
    If we just rely on one source, as good as solar and wind 
are, and we support massive expansion of those resources, we 
are racing against time. We believe that nuclear could provide 
a lot of clean power very fast.
    I gave the example of France earlier. If we could get to 
that kind of trajectory, we could provide a very significant 
chunk. So it is all about scale and time for us, nuclear being 
a very power dense resource. That is why we think it needs to 
be in the running, but we have a way to go to get there.
    Senator Booker. We have talked a lot about electricity 
generation, and of course the important role it has. But can 
you also talk about sort of the non-electric purposes, 
industrial applications, productions of zero-carbon fuels, such 
as hydrogen? Can you explain why it is important from a climate 
change perspective to focus on these elements of application of 
[indiscernible] through our [indiscernible]?
    Mr. Cohen. Right. It is important, Senator, to recognize 
that electricity is only 25 percent of total, final energy 
consumption in the United States and the world. The other 75 
percent is basically molecules that get burned right now. It is 
oil and gas, fundamentally.
    So, if we dealt with electricity, that would be great, but 
then we have industry and transport and building heat and all 
kinds of other applications. So we need a zero-carbon fuel to 
substitute for those molecules and for the things we can't 
electrify. We are going to lose 75 percent of the game if we 
don't have that.
    Nuclear is uniquely suited, for reasons we go into in the 
testimony, for that hydrogen production in particular, because 
we can supplement the electrolysis with high temperature steam, 
and so forth. It is very power dense, can scale quickly. That 
is why we need to think about non-electric applications of 
nuclear.
    Senator Booker. Ms. Roma, really quick, if I could just ask 
my question, could you explain real quickly, again, this 
international perspective is so urgent. Why is it important 
from a non-proliferation perspective for this legislation to 
facilitate the U.S. exercising more of a leadership role 
internationally related to advanced nuclear energy?
    Ms. Roma. One of the best tools that we have in our non-
proliferation toolbox is exporting nuclear technology because 
with that can come the U.S. standards that go with that 
technology about how it can be used and where it can be used.
    I will just give you an example. If you have a U.S. origin 
nuclear reactor, even if it goes to another country, and they 
further develop it, and then they try to export it to a third 
country, U.S. standards go with that technology all the way. 
Including what it can be used for and where it can go, making 
sure that the country that is the recipient of that technology 
has signed onto the highest level of nuclear non-proliferation 
agreements. If we don't have our hands in that technology, we 
don't really control where it goes or what somebody does with 
it.
    To go back to Mr. Cohen's comment earlier about China and 
Saudi Arabia, does it concern us? Yes. Can we do anything about 
it? No, because what they are doing is perfectly legal, subject 
to the international agreements that they have committed to.
    So we lose our ability to have that voice in the 
development of technologies and how those technologies are used 
and where they can go.
    Senator Booker. Thank you very much.
    Mr. Chairman and Mr. Ranking Member, again, I am just 
really grateful to be a part of this partnership with you all 
to try to advance what I consider utterly urgent for national 
security reasons, for the planetary challenges we have in 
climate change and more. This is an exciting area, and I hope 
we can continue to make strides together in a bipartisan way.
    Thank you.
    Senator Barrasso. Thank you so much, Senator Booker, for 
your leadership on this. I agree with you entirely.
    You might not have heard my opening remarks, but I made 
reference specifically to your good work in helping in our 
efforts here, so thanks so much, Senator Booker.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, Ranking Member 
Carper, and to the witnesses today.
    I also share and believe much of the views that were 
expressed by my colleague, Senator Booker, during his 
questioning.
    I do want to follow up with the last issue he raised with 
respect to nuclear non-proliferation. While I support the 
development of advanced nuclear reactors as part of our own 
energy mix and also would support exporting that technology, 
the export of that technology has to come with that important 
caveat that it is consistent with our nuclear non-proliferation 
goals. There are some aspects of advanced nuclear reactors that 
could increase the risks of proliferation with the development 
of the paleo, the more highly enriched uranium, and also as 
part of the reprocessing efforts, the plutonium.
    So let me start with Mr. Cohen. Mr. Cohen, do you agree 
that we have to address those additional risks? What kinds of 
measures do you think we should put in place?
    Mr. Cohen. Yes, I agree, Senator, we do have to be mindful 
of that issue. I think the specific opportunities here and 
challenges are first of all, as was mentioned, if we are in the 
game, we have a better control over what the product is and how 
it is deployed. If we are not in the game, we don't, and our 
adversaries will set the rules.
    Second is that specifically, the bill contemplates 
international harmonization and coordination of licensing. I 
think that can be expanded to include international cooperation 
over non-proliferation.
    Third point is that some of these designs actually may pose 
less proliferation risk than more. For example, many of them 
are much more efficient, so it means that the amount of fissile 
material involved is lower.
    Finally, as we discussed earlier, there are a lot of 
opportunities for R&D on the back end of the fuel cycle. There 
is no such thing as a completely proliferation resistant 
reactor, let's just be honest, but there are many steps we 
could take as part of this innovation process to ensure that we 
have got as tight a rein on that problem as we possibly can.
    Senator Van Hollen. Well, I fully agree with you, that we 
should encourage and incentivize the companies that are 
developing these advanced reactors to build in, to the maximum 
extent feasible, those protections against non-proliferation.
    Would you agree that we could address that issue with an 
amendment to this draft proposal that would say that countries 
that are receiving these advanced reactors should implement the 
additional protocol of the IAEA?
    As you know, over 150 countries have signed that. It seems 
to be a basic protection that we could take to protect our non-
proliferation efforts. Could you comment on that?
    Mr. Cohen. Senator, I am not the staff non-proliferation 
expert. I would prefer to get back to you in writing, but that 
is the general direction of our program, is to try and 
socialize all of the newcomer countries into the existing 
international framework.
    Senator Van Hollen. Ms. Roma, can you comment on that? You 
mentioned in your remarks the importance of protecting against 
nuclear proliferation. Can you talk about writing in a 
requirement that recipient countries agree to the additional 
protocol with the IAEA?
    Ms. Roma. Senator, I am going to have to look into that and 
get back to you in writing. Namely, I would just want to 
evaluate more closely the existing framework that we have with 
our Section 123 agreements and our Part 810 process, and the 
restrictions and considerations that go with that to see what 
additional protections a write in like that would afford. I 
just need to look at it more closely.
    Senator Van Hollen. Sure. Well, the gold standard, which is 
what we have been applying in many of our recent agreements, 
would require recipient countries to sign the additional 
protocol with the IAEA to have that enhanced protection against 
nuclear proliferation.
    Thank you for your comments. I look forward to your written 
responses.
    Mr. Chairman, I look forward to working with you and the 
Ranking Member to address that aspect of this. Again, I am a 
proponent of nuclear energy as part of the mix, so long as we 
maximize the safety component, including the safeguarding 
against nuclear proliferation to the extent that we can. I 
think the IAEA additional protocol has been an important 
measure that we should ensure that people are complying with.
    Senator Barrasso. Thank you, Senator Van Hollen, for your 
continued leadership and interest in this important topic.
    Senator Carper, I know you had a few additional questions.
    Senator Carper. Thanks, Mr. Chairman. It has been an 
important, and I think in many respects, a fascinating hearing. 
We are grateful to you, Mr. Chairman, for holding it, to our 
staffs for helping to put it together, and to our witnesses for 
being here with us today.
    A long time ago, I was a naval flight officer living in 
California, and stationed at a base about halfway between San 
Francisco and San Jose right off of Route 101. It was called 
Moffett Field Naval Air Station. We shared half of that base 
with NASA, a big NASA installation on the other half of our 
base.
    I was back visiting Moffett field, happened to be at 
Mountain View, visiting a technology company years later, and I 
revisited Moffett Field. It is no longer a naval air station, 
but NASA is still there.
    I happened to visit a facility actually using one of the 
buildings on the Moffett Field side, where they were doing some 
NASA experiments. They were trying to figure out how to create 
electricity on Mars. It was a NASA funded operation, which led 
to the development of a company now called Bloom Energy, which 
is headquartered not too far from Moffett Field in California.
    A tropical storm roared up the East Coast yesterday, 
leaving a lot of wreckage and mayhem in its path. We almost 
never have tornadoes in Delaware. We did yesterday, and the 
weather forecasters tell us, the meteorologists tell us it is 
not going to be the last hurricane that is going to come visit 
us this summer. There will be plenty more, and we are going to 
lose power during those hurricanes, as we did yesterday in 
Delaware and other parts of our country.
    There is a company now that is headquartered in California, 
but they actually have a considerable manufacturing facility in 
what used to be our Chrysler plant in the south side of the 
University of Delaware. It is called Bloom Energy, and they 
take hydrogen from natural gas, and they turn it into 
electricity. Yesterday, when the electricity went out in a 
number of places up and down the East Coast, they were able to 
restore the electricity right away by using these bloom boxes. 
Bloom boxes.
    It would be great if somehow, the hydrogen that is used in 
conjunction with fuel cells in these bloom boxes, it would be 
great if the hydrogen could be clean hydrogen, and not just 
come from carbon sources, like natural gas. I understand, I 
think one of you actually mentioned in your testimony, actually 
mentioned something about clean hydrogen production at reactor 
sites.
    I am sitting here thinking, is there a way to not only 
create through these bloom boxes, electricity for, could be a 
housing development, could be for a hospital, it could be a 
shopping center, is what they were using them for all over this 
country and around the world now.
    But the bloom boxes could be an even more environmentally 
friendly source of electrical energy in this country if we 
could somehow come up with a clean hydrogen source, and nuclear 
power plants might somehow play a role in that.
    Ms. Roma, would you just respond to that? Is that a pipe 
dream? Is that something that is realistic? I would welcome 
your thoughts, along with Mr. Cohen.
    Ms. Roma. No, I don't think it is a pipe dream, Senator, I 
think it is realistic. I think a lot of the non-power 
applications of advanced reactors are truly remarkable, from 
medical isotope reduction to water desalinization to heat 
processes, anything that you need to burn carbons for, 
hopefully can be replaced with advanced reactors. That is why I 
am in this field and excited about it.
    Senator Carper. Same question, Mr. Cohen, do you have any 
thoughts on clean hydrogen production from the nuclear power 
industry?
    Mr. Cohen. Yes, Senator Carper, definitely not a pipe 
dream. In fact, the Department of Energy right now has four 
demonstrations with four separate U.S. power companies to do 
precisely that, to test out a use of nuclear for electrolysis.
    As I mentioned earlier, the advanced reactors might even be 
better at doing that because they have higher heat, which will 
make the electrolysis process more efficient. So a lot of folks 
are chasing that right now. It should be part of the innovation 
process.
    Our recommendation, although it is not--this Committee 
doesn't have jurisdiction over the DOE R&D budget, but we are 
separately developing proposals to really put that whole effort 
of nuclear to hydrogen on fast forward.
    Senator Carper. That is great.
    Mr. Goranson, I don't want to pass you by if you have 
something you would like to add on this, you are welcome, and 
thank you.
    Mr. Goranson. With respect to using nuclear power as a 
source of clean hydrogen generation, I think from my 
perspective I think it is an ideal way to do it. In fact, I was 
thinking here while you were raising it, it was raised by a 
science fiction writer 20 years ago, about doing that. To see 
some work being done right now to make it come to reality is, I 
think, it is an important thing to do.
    Senator Carper. Good. Thanks for that.
    Mr. Chairman, I was handed a note by Lauren, who is sitting 
right behind me. The note says, France is reducing its 
dependency on nuclear power. Its goal is to reduce that 
dependency from 80 percent to maybe 50 percent by 2035, 
investing in renewables, and that is all well and good, and we 
commend them for going reliance on renewables.
    We are seeing a growing reliance on renewable here, too, 
and we are seeing a dropping reliance on nuclear, which is 
concerning to a lot of us, Democrats, Republicans, and 
Independents, for a variety of reasons that we have discussed 
here today.
    The nuclear industry, as I said earlier, has to bring their 
A game to work every day, and in several instances that I have 
described earlier, they haven't, and I have been very 
disappointed with that.
    Having said that, there is still a lot of potential here, 
and it is important for us to seize the day. I look forward to 
working with you and our colleagues that are here and those 
that aren't to achieve that.
    This won't surprise you, Mr. Chairman, but before this 
hearing ends, I want to ask for unanimous consent to submit for 
the record some statements from groups who have a real interest 
in these issues, too.
    And with that, our thanks to the witnesses, great to see 
you all, and thanks to our staff for helping us to pull all 
this together. Thank you. We look forward to following up with 
you.
    Senator Barrasso. Well, thank you, Senator Carper. Without 
objection, those are submitted for the record.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. I also have some unanimous consent 
requests for items for the record. One is my August 3rd, 2020, 
op-ed entitled ``The Future of Nuclear Energy Is American''; a 
July 17th article from the Energy Information Administration 
entitled ``U.S. Uranium Production Fell to an All-Time Annual 
Low in 2019''; a July 2020 report from the Columbia Center of 
Global Energy Policy entitled ``Strengthening Nuclear Energy 
Cooperation Between the United States and Its Allies''; and a 
letter from the Nuclear Energy Institute supporting the draft 
American Nuclear Infrastructure Act of 2020.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Barrasso. I want to thank all of you, Ms. Roma, Mr. 
Goranson, Mr. Cohen, thank you so much for being here today.
    Other members of the Committee, and you saw a number of 
members came and left, some of them may submit additional 
questions for you to answer in writing, and we ask that you 
please respond as quickly with thorough answers as you could.
    As a result, the hearing record will remain open for 2 
weeks.
    We are so very grateful you would take the time to be with 
us and to share your knowledge and your expertise.
    With that, I want to just thank you once again for your 
time and your testimony, and the hearing is adjourned.
    [Whereupon, at 11:52 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                 [all]
</pre></body></html>
